<html>
<title> - TO DIRECT THE PRESIDENT TO DEVELOP A STRATEGY TO OBTAIN OBSERVER STATUS FOR TAIWAN IN THE INTERNATIONAL CRIMINAL POLICE ORGANIZATION; THE GIRLS COUNT ACT OF 2015; THE UNITED STATES INTERNATIONAL COMMUNICATIONS REFORM ACT OF 2015; CONDEMNING THE APRIL 2015 TERRORIST ATTACK AT THE GARISSA UNIVERSITY COLLEGE IN GARISSA, KENYA; AND EXPRESSING DEEPEST CONDOLENCES TO AND SOLIDARITY WITH THE PEOPLE OF NEPAL FOLLOWING THE DEVASTATING EARTHQUAKE ON APRIL 25, 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





TO DIRECT THE PRESIDENT TO DEVELOP A STRATEGY TO OBTAIN OBSERVER STATUS 
FOR TAIWAN IN THE INTERNATIONAL CRIMINAL POLICE ORGANIZATION; THE GIRLS 
   COUNT ACT OF 2015; THE UNITED STATES INTERNATIONAL COMMUNICATIONS 
 REFORM ACT OF 2015; CONDEMNING THE APRIL 2015 TERRORIST ATTACK AT THE 
 GARISSA UNIVERSITY COLLEGE IN GARISSA, KENYA; AND EXPRESSING DEEPEST 
 CONDOLENCES TO AND SOLIDARITY WITH THE PEOPLE OF NEPAL FOLLOWING THE 
                DEVASTATING EARTHQUAKE ON APRIL 25, 2015

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

      H.R. 1853, H.R. 2100, H.R. 2323, H. Res. 213 and H. Res. 235

                               __________

                              MAY 21, 2015

                               __________

                           Serial No. 114-56

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-692PDF                      WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1853, To direct the President to develop a strategy to 
  obtain observer status for Taiwan in the International Criminal 
  Police Organization, and for other purposes....................     3
H.R. 2100, To authorize the Secretary of State and the 
  Administrator of the United States Agency for International 
  Development to provide assistance to support the rights of 
  women and girls in developing countries, and for other purposes     8
H.R. 2323, To enhance the missions, objectives, and effectiveness 
  of United States international communications, and for other 
  purposes.......................................................    15
  Amendments to H.R. 2323 offered by:
      The Honorable Joaquin Castro, a Representative in Congress 
        from the State of Texas..................................    83
      The Honorable Michael T. McCaul, a Representative in 
        Congress from the State of Texas.........................    84
      The Honorable Edward R. Royce, a Representative in Congress 

        from the State of California, and chairman, Committee on 
        Foreign 
        Affairs..................................................85, 87
H. Res. 213, Condemning the April 2015 terrorist attack at the 
  Garissa University College in Garissa, Kenya, and reaffirming 
  the United States support for the people and Government of 
  Kenya, and for other purposes..................................    88
H. Res. 235, Expressing deepest condolences to and solidarity 
  with the people of Nepal following the devastating earthquake 
  on April 25, 2015..............................................    92
  Amendment in the nature of a substitute to H. Res. 235 offered 
    by the Honorable Matt Salmon, a Representative in Congress 
    from the State of Arizona....................................    96
      Amendment to the amendment in the nature of a substitute to 
        H. Res. 235 offered by:
          The Honorable Gerald E. Connolly, a Representative in 
            Congress from the Commonwealth of Virginia, the 
            Honorable Karen Bass, a Representative in Congress 
            from the State of California, the Honorable Brad 
            Sherman, a Representative in Congress from the State 
            of California, and the Honorable Alan S. Lowenthal, a 
            Representative in Congress from the State of 
            California...........................................   100
          The Honorable Brad Sherman.............................   101

                                APPENDIX

Markup notice....................................................   114
Markup minutes...................................................   115
Markup summary...................................................   117
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............   118
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California: Prepared statment of the Honorable Michael 
  M. Honda, a Representative in Congress from the State of 
  California.....................................................   119
The Honorable Karen Bass, a Representative in Congress from the 
  State of California: Prepared statement........................   120
 
TO DIRECT THE PRESIDENT TO DEVELOP A STRATEGY TO OBTAIN OBSERVER STATUS 
FOR TAIWAN IN THE INTERNATIONAL CRIMINAL POLICE ORGANIZATION; THE GIRLS 
   COUNT ACT OF 2015; THE UNITED STATES INTERNATIONAL COMMUNICATIONS 
 REFORM ACT OF 2015; CONDEMNING THE APRIL 2015 TERRORIST ATTACK AT THE 
 GARISSA UNIVERSITY COLLEGE IN GARISSA, KENYA; AND EXPRESSING DEEPEST 
 CONDOLENCES TO AND SOLIDARITY WITH THE PEOPLE OF NEPAL FOLLOWING THE 
                DEVASTATING EARTHQUAKE ON APRIL 25, 2015

                              ----------                              


                         THURSDAY, MAY 21, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:08 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    Pursuant to notice, we meet today to mark up several 
bipartisan measures that were provided to members earlier this 
week.
    Without objection, all members may have 5 days to submit 
statements for the record and any extraneous material that they 
might want to include on today's business.
    According to the expedited procedures shared with members 
yesterday, we intend to call up and approve today's measures en 
bloc at the outset because of the voting, and afterwards I will 
recognize myself and the ranking member and any other members 
who would like to make remarks on the record.
    Members have all of the items, which were provided to your 
offices previously, in the packets in front of you. And so, 
without objection, the following items will be considered en 
bloc and are considered as read: H.R. 1853, this is regarding 
observer status for Taiwan in INTERPOL; H.R. 2100, the Girls 
Count Act of 2015; H.R. 2323, the U.S. International 
Communications Reform Act of 2015, along with the following 
amendments to that bill: Castro Amendment 51, McCaul Amendment 
33, Royce Amendment 41, Royce Amendment 901; House Resolution 
213, condemning the terrorist attack at the university in Kenya 
and reaffirming U.S. support for Kenya; House Resolution 235, 
expressing condolences to and solidarity with the people of 
Nepal following the devastation that came with the recent 
quakes. And we have the Salmon Amendment 70 in the nature of a 
substitute, reflecting the subcommittee-adopted changes to 
House Resolution 235. We have the Connolly-Bass-Sherman-
Lowenthal Amendment; that is Amendment 54 to Salmon Amendment 
70. And we have the Sherman Amendment 10 to Salmon Amendment 
70.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
    Chairman Royce. The Chair now moves that the items being 
considered en bloc be adopted by the committee.
    All those in favor, say aye.
    All those opposed?
    In the opinion of the Chair, the ayes have it, and the 
items considered en bloc are agreed to.
    Without objection, each of those underlying measures, as 
amended, is ordered favorably reported as a single amendment in 
the nature of a substitute.
    Staff is directed to make technical and conforming changes. 
The Chair is authorized to seek consideration under suspension 
of the rules.
    Having concluded the operative portion of today's business, 
I will now recognize members who wish to make statements on the 
adopted measures, beginning with myself and the ranking member 
when he arrives here.
    So we begin with H.R. 2323. This is the International 
Communications Reform Act.
    And today U.S. international broadcasting must contend with 
a new era of what is often called weaponized information, where 
groups like ISIS or Hezbollah and Putin are subverting stable 
regimes, spreading conspiracy theories intended to incite 
violence.
    There is widespread agreement that the Broadcasting Board 
of Governors, the agency charged with guiding U.S. 
international broadcasting, is practically defunct. And this is 
not good news for our sole U.S. Government effort to counter 
the propaganda of both terrorists and of dictators. So this 
measure, the United States International Communications Reform 
Act, carries out much-needed reforms to our international 
broadcasting, which have been championed by a broad coalition 
of supporters.
    The bill consolidates the now six organizations of the BBG 
into two entities. One, a Federal agency, will house the Voice 
of America. And the other, a non-Federal entity called the 
Freedom News Network, will run the Radios, or surrogate 
broadcasters, known as Radio Free Europe, Radio Liberty, Radio 
Free Asia, the Middle East Broadcasting Network.
    They have two very different missions. The VOA exists to 
tell America's story abroad. It explains America and American 
ideals to the world. The Radios, the surrogates here, function 
in closed societies. They do this with a lot more than just 
radio, obviously, but they act as a free press would if one 
were allowed to operate, and, thus, they have that job of 
irritating dictators and inspiring civil society.
    The bill also establishes for both of these organizations a 
full-time day-to-day agency head and clear lines of 
accountability.
    By reforming the BBG, more resources can be spent cutting 
through the misinformation put forward by our foes instead of 
on a broken bureaucracy here in Washington, DC. These reforms 
are long overdue. The longer we wait to act, the further ground 
we cede to those who seek to do us grave harm.
    The next measure, H.R. 1853, that I was going to comment 
on, this directs the President to develop a strategy to obtain 
observer status for Taiwan in INTERPOL. And this, of course, 
builds upon our successful efforts last Congress to ensure U.S. 
endorsement of Taiwan's entry into the International Civil 
Aviation Organization. So I want to thank Matt Salmon, chairman 
of the Asia Subcommittee, for his leadership on this important 
issue.
    Since 1984, Taiwan has relied on delayed, secondhand 
information from the U.S. about international criminals and 
global crime, making it needlessly vulnerable to security 
threats. Likewise, Taiwan cannot share intelligence it gathers 
to the benefit of INTERPOL members. So Taiwan is the United 
States' 10h-largest trading partner, a top-20 world economy. 
This means a large number of people and goods are transiting 
through Taiwan each and every day. Taiwan especially deserves 
access to INTERPOL's law enforcement infrastructure to improve 
security for all involved.
    Briefly, I will also tell you about House Resolution 235. 
This is the Nepal resolution. And I thank Matt Salmon for this 
resolution on Nepal and the good oversight that his 
subcommittee has conducted regarding the U.S. response to its 
two devastating recent earthquakes.
    We have had 8,000 people, 8,000 souls, killed in this 
disaster, including six brave Marines who sought to bring food 
and medicine and supplies to remote areas that were 
particularly hard-hit in Nepal. This resolution commends U.S. 
relief efforts, rightfully so.
    Unfortunately, outdated U.S. purchase and shipping 
requirements under the Food for Peace program have again 
limited an otherwise robust U.S. humanitarian response. We 
currently have tons of U.S. food aid sitting in Sri Lanka. In 
the meantime, USAID has had to rely on other disaster 
assistance accounts to provide much-needed emergency food, 
meaning those funds cannot be used for other necessities. So I 
am eager to work with my colleagues to reform our international 
food aid program so that, in the future, we can get lifesaving 
assistance to more people in less time for less money.
    House Resolution 213, condemning terrorist attacks by al-
Shabaab at the university in Kenya. I want to start by thanking 
Representative Bass for authorizing this important measure.
    Al-Shabaab is getting squeezed in Somalia, losing ground 
and losing important financial lifelines, and this latest high-
profile attack seems to be an attempt to tell the world that 
they are still around. But there were 147 students tragically 
killed simply for trying to get an education, you know? Al-
Shabaab divided those students along religious lines by 
quizzing them on the Koran. The ones who passed lived; those 
who didn't were killed.
    This resolution also reaffirms U.S. support for promoting 
tolerance in Kenya and commends Kenya's contributions to the 
African Union peacekeeping force that is deployed right now in 
Somalia.
    And, lastly, H.R. 2100, the Girls Count Act of 2015. I want 
to recognize Representative Chabot for his work on this good, 
bipartisan bill, which our committee and the House passed in a 
substantially similar form last Congress.
    One-third of children around the world have never had their 
births registered. Unable to prove their age or their parentage 
or their citizenship, these children are often prevented from 
attending school or receiving health services.
    For girls, in particular, a lack of documentation can 
undermine existing legal protections against their being 
trafficked or against their being made child brides. And, as 
they grow up, girls without an official identity face 
especially high barriers to education and to entrepreneurship.
    This bill authorizes the State Department and USAID to 
prioritize programs to improve countries' civil registries and 
rates of birth registration. And the bill encourages the 
development of laws and policies to prevent discrimination 
against girls and improve property and inheritance rights for 
women. And I encourage all members to support this measure.
    We now go to Mr. Eliot Engel, the ranking member of this 
committee.
    Mr. Engel. Thank you very much for holding this markup, Mr. 
Chairman. And thank you, as always, for working with us in such 
a bipartisan manner on all the measures before us and in all 
the activity of this committee.
    Let me first voice my support for H.R. 1853, the Taiwan 
INTERPOL Act, sponsored by Chairman Salmon. This bill would 
direct the executive branch to help Taiwan receive observer 
status in the International Criminal Policy Organization, known 
as INTERPOL. INTERPOL enhances public safety around the world 
by linking law enforcement agencies and facilitating the smooth 
flow of information.
    Taiwan's absence from INTERPOL creates a public safety risk 
for the people of Taiwan and, actually, for all of us. This 
legislation will help put Taiwan on a path to observer status 
in INTERPOL, the same status it enjoys in other international 
organizations like the World Health Assembly.
    I urge all of my colleagues to support this.
    Let me next thank Representatives Chabot and McCollum for 
introducing the Girls Count Act.
    Around the world, over a third of children under the age of 
5, mostly girls, have no registration of their birth. A lack of 
documentation creates a dire vulnerability to child labor, 
human trafficking, and child marriage. Their lives are defined 
by limited choices and opportunities, and the long-term 
development of their communities is also dragged down. The 
Syrian refugee crisis has presented an acute example of this 
challenge.
    H.R. 2100 will ramp up efforts to get more children 
registered. It authorizes the State Department and USAID to 
work with local governments to expand access to registration 
programs, helping children get off to a good start. So I urge 
all my colleagues to support this bill, as well.
    I am also glad that Chairman Royce has reintroduced the 
United States International Communications Reform Act, which I 
am proud to cosponsor. This bill, which passed the House 
unanimously last year, would bring a much-needed overhaul to 
the Broadcasting Board of Governors.
    During the Cold War, the Voice of America, Radio Free 
Europe, and other U.S.-backed broadcasters presented honest, 
unbiased news and information in the face of relentless Soviet 
propaganda. Mr. Royce and I both support these kinds of 
programs.
    Today, America's rivals spend massive sums to spread 
violent messages and disseminate propaganda. Unfortunately, our 
ability to respond has fallen behind the techniques employed by 
Russia, ISIS, and others.
    This bill creates a new management structure to oversee our 
international broadcasting efforts. It streamlines our various 
broadcasting organizations, eliminates duplication, and 
clarifies the roles of the Voice of America and its so-called 
surrogates. And it would promote the use of new media platforms 
to complement traditional tools like shortwave radio and 
television.
    I want to thank Chairman Royce for his dedication to this 
issue, and I urge support for this bill.
    I also support H. Res. 213, which condemns the recent 
attack at Garissa University College in Garissa, Kenya, by the 
brutal terrorist group al-Shabaab.
    Because Kenya's leaders chose to make their region stronger 
and participate in the African Union mission in Somalia, al-
Shabaab killed nearly 150 innocent students and teachers and 
injured more than 100 others.
    The resolution offers condolences to the family and friends 
of those killed, recognizes Kenya as an important ally, and 
commends Kenya for working to heal a war-torn Somalia. Let me 
thank Congresswoman Karen Bass, the ranking member on the 
Africa Subcommittee, for spearheading this measure, and I urge 
my colleagues to support it.
    Finally, I want to express my support for H. Res. 235, 
expressing our deepest condolences and solidarity with the 
people of Nepal following the devastating April 25 earthquake, 
which left more than 8,000 dead, several thousand more injured, 
and has disrupted the lives of more than 8 million people.
    But even in such a tragedy, we are inspired by the global 
response. Partners like India and Japan and, of course, our 
American search and rescue teams have done incredible work, 
whether first responders from a few miles away from here in 
Fairfax County or from the California fire department, along 
with American Marines, including six who lost their lives in a 
tragic helicopter crash, and the Congress paid homage to them 
yesterday.
    More than 50 aftershocks have shaken Nepal since April 25, 
and there will be more. And that is why we need to work with 
partners to ensure that the people of Nepal are prepared for 
these kinds of natural disasters in the future. This resolution 
signals our commitment to that goal, and I urge our colleagues 
to support it.
    Again, Mr. Chairman, thank you for your work to move 
forward with these important bills. We appreciate very much 
working together in such a bipartisan manner.
    Chairman Royce. Thank you, Mr. Engel.
    I am going to ask if any of the members of the committee 
seek recognition.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I will be very brief, 
and I would ask unanimous consent that my full statement be 
made a part of the record.
    Let me just say I am very grateful for this markup, and all 
five of the bills, I think, are outstanding. Again, in the 
spirit of bipartisanship, each of those come before us having 
worked out any problems that existed between each side of the 
aisle, and I think that is the way we ought to work.
    I want to note that Sam Stratman is here, one of the most 
distinguished members of Henry Hyde's--when he was chairman of 
this committee. And it is great to see Sam. He did a wonderful 
job for the committee for so many years.
    Let me just again thank our ranking member, Congresswoman 
Bass, for H. Res. 213 that condemns the horrific attack by 
Islamic radicals from the terror group al-Shabaab at Garissa 
University College in Kenya on April 2. About 150 mostly 
Christian students were segregated from other students and 
butchered on account of their religious faith, the fact that 
they were Christians.
    And there is a report out right now, 55 minutes old, on the 
Internet that al-Shabaab took over, at least for about 2 hours, 
a mosque in Garissa, fled back into the woods after spewing out 
their hatred and vitriol, and then went back into the forest 
with, of course, the Kenyans in hot pursuit.
    I want to thank Congressman Chabot for an excellent bill, 
Girls Count. And, you know, if you don't chronicle the women 
and the girls in this world, it is so much easier for them to 
be trafficked, to disappear.
    And I would also point out to my colleagues that this 
underscores and will help bring additional light and scrutiny 
to an absolutely ominous phenomenon that has taken place over 
the course of the last several years, and that is sex-selection 
abortion and the missing girls in the world. The estimates are 
at least 200 million missing females because of sex-selection 
abortion. It happens here. At least 15 countries around the 
world have seen a gross ascendency in this phenomenon of doing 
ultrasounds at the fifth month, determining the gender of the 
baby, and destroying her simply because she happens to be a 
girl.
    I held my 51st hearing on human rights in China just 2 
weeks ago. We heard from Chen Guangcheng, the great blind 
activist and human rights lawyer, who made that daring escape, 
went to our Embassy, and is now here in the United States with 
his family. He testified about how awful the policy is in China 
with its one-child policy and the targeting of little girls.
    Mara Hvistendahl, who has also submitted testimony, wrote 
in her book that, in Asia alone, there are 160 million girls 
and women missing, the girl child being targeted by sex-
selection abortion. And to put that in perspective, that equals 
the entire female population in the United States of America, 
killed by sex-selection abortion simply because she happens to 
be a girl.
    This Girls Count legislation--and, Steve, thank you so much 
for this--will help to bring light and scrutiny to the missing 
daughters throughout the entire world. Excellent bill.
    Ms. Ros-Lehtinen [presiding]. Thank you, Mr. Smith.
    Mr. Sherman is recognized.
    Mr. Sherman. Thank you, Madam Chair.
    I have enjoyed working with the chair of the committee, his 
staff, and the ranking member's staff to include in these bills 
some important provisions.
    First, as to Nepal, I want to thank the chairman for 
including my amendment to focus on the importance of protecting 
the women of Nepal from violence against women and to work for 
gender equality. UNICEF estimates that 7,000 Nepali girls are 
trafficked annually, and this amendment directs the State 
Department to focus on trafficking.
    I would ask unanimous consent to put in the record the 
statement of----
    Ms. Ros-Lehtinen. Without objection.
    Mr. Sherman [continuing]. Mr. Honda, who worked with me on 
that amendment.
    I worked with Mr. Connolly, and, together, we put in an 
amendment to recognize task forces that have gone to Nepal from 
his area and mine. In particular, California Task Force 2 was 
made up of 57 Los Angeles County firefighters and 6 search and 
rescue dogs. This team carries survival and rescue kits that 
contain everything from heavy concrete cutting equipment, 
chainsaws, search cameras, and SONAR to locate victims.
    Moving on to the broadcasting bill, I want to thank the 
chairman for working with me to focus on an issue that I have 
talked to this committee about for the last several years, the 
importance of broadcasting in the Sindhi language.
    This committee voted to authorize $1.5 million a year for 
that effort, yet we can't get BBG to take this seriously. They 
insist upon broadcasting only in Urdu when, if you are going to 
reach the people of Pakistan, you have to reach them in the 
language in which they are most familiar. And for tens of 
millions of Pakistanis, that is the Sindhi language.
    I have asked VOA to provide me with a cost estimate for 
broadcasting in Sindhi just 3 hours a day on a radio station 
that would just reach Sindh province and, in particular, the 
upper portion of Sindh province. Instead, they come back with 
estimates as to what it would cost to reach the entire country, 
and these estimates are at least 10 times the cost of what I am 
currently proposing. I would like to propose something grander, 
but we realize there are budgetary restraints.
    We just need one Urdu/Sindhi speaker who could translate 
what we are already broadcasting in Urdu and broadcast it in 
Sindhi in one station. When you look at our costs in Korea and 
other places, we would realize that this should cost in 
Pakistan $100,000 or $200,000, but we can't even get an 
estimate for this. And I want to thank the chairman for 
agreeing to join me with a letter pushing BBG to give us a 
reasonable estimate.
    And given that this is a region of Pakistan that is so 
important to us and where the natural inclination of people is 
toward a moderate approach to Islam, I think that it is 
important that we prod BBG to give us a reasonable approach 
rather than, ``Well, this is what we are doing, and don't 
bother us with any details.''
    I commend the committee for undertaking the other bills 
that are before us. It is important that Taiwan be part of 
INTERPOL, and I joined with Chairman Salmon in introducing that 
bill.
    And, with that, I yield back to the chair.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chair, for calling this markup 
today.
    I am supportive of all the measures before the committee, 
but I will focus for just a moment on H.R. 2011, the Girls 
Count Act of 2015, which I introduced with the support from 43 
of our colleagues, many of whom are members of this committee.
    I want to personally thank Mr. Smith for his impassioned 
comments about the importance of this legislation. There are a 
lot of reasons for it, but that is one that is particularly 
close to my heart.
    Every year, approximately 51 million children are not 
registered at their birth. Lacking a birth certificate 
restricts the ability of children across the globe from 
engaging in a number of fundamental rights that we take for 
granted here in the United States.
    In order to address this issue, H.R. 2100 directs the 
Department of State and USAID to support efforts aimed at 
improving birth registry through birth certificate programs in 
developing countries. Ensuring that every child has a birth 
certificate will aid in a host of areas, including but not 
limited to, access to voting rights, land tenure rights, health 
services, education, and on and on. It will help support 
efforts to prevent human and sex trafficking and aid in 
identifying displaced persons. H.R. 2100 would also aid in 
international adoption cases.
    Despite the fact that almost all countries require some 
type of birth registration prior to the government's issuance 
of identifying documents, like a birth certificate or a 
driver's license, nearly one-third of all children under the 
age of 5 worldwide have never had their births registered--one-
third of the children on this earth.
    For girls, in particular, this lack of birth registration 
increases the barriers they face to education, 
entrepreneurship, civic participation, in addition to 
increasing their vulnerability to trafficking or exploitation. 
Girls Count would authorize the State Department and USAID to 
support programs that are designed to protect girls' legal 
rights, particularly economic and property rights, and to build 
legal and policy frameworks to prevent discrimination against 
women and girls.
    Madam Chairman, I want to thank you for considering this 
important piece of legislation and thank my colleagues for 
their broad bipartisan support in a number of comments they 
have made this morning in favor of this legislation.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman.
    I want to begin by thanking Chairman Royce and Ranking 
Member Engel for their continued leadership on this committee 
and on the important bills that we just moved forward.
    I am proud to support the Girls Count Act, which will help 
improve birth registration around the world, especially in 
countries where girls and women often get left behind, unable 
to pursue an education or work outside the home because the 
government has no official record that they exist. This will 
complement the work already being done by the State Department 
and USAID and help us pave a road to full gender equality. And 
I want to thank everyone who worked so hard on that piece of 
legislation.
    I am also pleased that we have passed the Taiwan INTERPOL 
Act this morning. It is important and, of course, in the best 
interest of the United States to ensure that information about 
criminals and global criminal activities are shared as widely 
and as efficiently as possible.
    We have also moved forward this morning a resolution that 
was considered by the Africa Subcommittee last week. The April 
2 terrorist attack at the Garissa University College in Kenya 
was a despicable, evil act of terrorism by al-Shabaab. The 
victims were innocent men and women attending school, who were 
targeted for murder because of their religious faith. I thank 
my friend and colleague Congresswoman Bass for sponsoring this 
resolution to send the message that such violence and terrorism 
will not be tolerated and must be condemned in this strongest 
terms.
    And regarding another tragedy, H. Res. 235 expresses our 
condolences to the people of Nepal in the wake of the 
earthquakes that have devastated their country. I have 
supported the international disaster response to date, 
especially U.S. Search and rescue teams and humanitarian 
contributions, and want to recognize the lives lost while 
providing humanitarian assistance. I sincerely hope that the 
United States will honor their sacrifice and continue to do 
everything we can to help with their reconstruction efforts.
    And, finally, I want to thank Chairman Royce and Ranking 
Member Engel for their leadership on broadcasting issues. When 
I meet with international civil society groups, they 
consistently raise the concern that the media and the 
information dissemination in their country are not free and 
fair. Too often, propaganda and censorship are used by 
extremist leaders in an attempt to assert control over a group 
of people or an entire country. I support this country and this 
committee's commitment to providing open access to news and 
information around the world, and our passage today of H.R. 
2323 will advance that goal.
    Finally, I want to thank the chairman and ranking member 
for moving these important pieces of legislation and, again, 
for always working in a bipartisan way, which I think reflects 
on the best values of our country and hopefully of this 
Congress.
    And, with that, I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    And now we will turn to Mr. Salmon, the chairman of the 
Asia Subcommittee.
    Mr. Salmon. Thank you, Madam Chairman.
    I would to express wonderful support to our chairman of the 
full committee, Mr. Royce, and the ranking member, Mr. Engel, 
for their great leadership and support of all of the issues on 
today's schedule.
    I also want to thank the ranking member on our 
subcommittee, Brad Sherman, for his great work both on H.R. 
1853, which is requiring the President to develop a strategy to 
get Taiwan involved in INTERPOL, and then the resolution 
expressing our deepest sympathies and condolences for Nepal, 
which I think has been made very much better through the 
amendment process. I am very excited about what we are voting 
on today.
    First of all, in the Taiwan INTERPOL issue, H.R. 1853, 
folks, this is a no-brainer, and that is why we are seeing such 
widespread support across the aisle for this measure. It 
doesn't make any sense at all, in a time of great angst and 
threat by numerous terrorist groups across the globe, that we 
don't have all hands on deck, that just because of political 
idiosyncrasies and the flexing of muscles by China, that Taiwan 
isn't involved at all in any international institutions, that 
we are doing stupid things and not allowing them to be involved 
in something as important as this when all hands should be on 
deck. So I appreciate the fact that we are moving forward on 
this.
    Regarding the Nepal condolence measure that we are 
introducing today, we had a hearing yesterday with our folks 
from State Department, USAID, and our Department of Defense. 
And I have to say, I just couldn't be prouder of the job that 
they have done and how quickly they responded to not just one 
but two major earthquakes. And I am so proud of our military 
folks.
    Just the other day, I had one of the toughest conversations 
with a constituent--actually, not a constituent but somebody 
from my State who lost his beloved son, Lance Corporal Jake 
Hug, in the terrible helicopter accident that happened during 
the search and rescue in Nepal.
    I am so proud of those brave men and women that put on the 
uniform every day and go out to fight for freedom and put the 
United States' best interests forward. And I am so thankful 
that will we were able to get a measure in that is also 
thanking them and honoring them for the great service that they 
do for our country.
    Again, this committee I think is the most bipartisan 
committee in the entire Congress, and I just hope that a lot of 
the media is taking note at how well we work together. There is 
an old saying, when the going gets tough, the tough get going. 
And I am certainly proud to serve with the members on both 
sides of the aisle on this committee. It is a great testament 
of the way things should be.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Salmon.
    Lois Frankel from Florida.
    Ms. Frankel. Thank you, Madam Chair.
    And I, too, want to thank the chairman and ranking member 
for this bipartisan approach and how you all run this 
committee.
    And I also want to particularly thank Mr. Chabot for his 
leadership on the Girls Count Act, which I am proud to be a 
cosponsor. And I want to reaffirm some of the comments that 
have been made by my colleagues, because I don't think it can 
be said enough that the more we do for our young girls and 
women to reach their full potential, the more that countries 
around the world will reach their full potential.
    Every year, tens of millions of girls are born in the 
developing world and they do not receive any sort of birth 
documentation. Without a nationally-recognized birth 
certificate, girls and women are often prevented from 
participating in the formal economic, legal, educational, and 
political sectors of their economy. And, as we have heard, even 
worse, they are much more susceptible to exploitation, human 
trafficking, forced labor, and child marriage.
    So I am very pleased that we have come together in a 
bipartisan fashion to help some of the world's most vulnerable 
children. And it may just be a play on words, but by counting 
girls, we take a positive step toward making sure that girls do 
count. And we know that when girls flourish, so do their 
communities.
    And I yield back, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    And now Chairman McCaul.
    Mr. McCaul. Thank you, Madam Chair.
    Let me thank Chairman Royce and Ranking Member Engel for 
their leadership on this bill, the United States International 
Communications Reform Act. I believe enactment of this bill 
into law will go a long way in improving U.S international 
broadcasting efforts to strengthen our public diplomacy around 
the world.
    I am particularly grateful to the committee for accepting 
my amendment to encourage a U.S. international communications 
agency to collaborate with private-sector for-profit and 
nonprofit entities to highlight programming content, including 
music which promotes peace in countries experiencing high 
levels of terrorism and other forms of religious, ethnic, or 
political violence.
    I just returned from Iraq last week where a car bomb 
exploded in west Baghdad, killing 10 people. And rather than 
being deterred by that terror, the day following the attack, an 
individual by the name of Karim Wasfi, a cellist and former 
conductor of Iraq's National Symphony Orchestra, came to the 
wreckage site and played his cello.
    There is a YouTube video out on this that has gone viral 
over the Internet, and it is quite moving to see him in the 
middle of the blast playing the cello. And people came out to 
this site of horror and murder to listen to one of the nation's 
most renowned musicians rather than hide from other would-be 
attackers.
    You know, when I was over there, I had a flak jacket and a 
helmet on, and I could only think of this man being in the 
middle of a bomb site, playing his cello freely, while others 
were looking on with no protection whatsoever--the courage they 
demonstrated that day in the streets of Baghdad.
    And when asked why he did this, Mr. Wasfi said, ``You know, 
I'm worried that people are losing hope and surrender to the 
situation. And I play--I play my cello to show that life is 
worth living. I can't beat the bombs with my cello,'' he said, 
``but I can bring respect for the dead.''
    So to this committee, I say that I believe music--and I 
come from Austin, Texas, and, sort of, we like to think of 
ourselves as the music capital of the world, in some respects. 
Some would debate that, I suppose. But I believe that music can 
bring people together in bad parts of the world. It can defeat 
radical Islamists; it can defeat the face of terror, as Mr. 
Wasfi's cello did that very day. And that is why I think it is 
important that we highlight music and other forms of 
programming content that promotes peace in places like Iraq 
which are so desperate for it.
    So, with that, let me thank the committee for its support 
of my amendment, and I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you, Mr. McCaul.
    Do any other members seek recognition?
    Mr. Lowenthal is recognized.
    Mr. Lowenthal. Thank you, Madam Chair.
    First, I would like to thank my colleague, Mr. Connolly, 
for introducing, with myself and Mr. Sherman and Ms. Bass from 
southern California, the amendment to House Resolution 235 
recognizing the brave service of search and rescue personnel 
from both Fairfax County in Virginia and from my own home 
county of Los Angeles County in California. These Americans 
traveled all the way to Nepal to help those in need, and we 
cannot thank them enough for their service.
    I also wish to speak in support of Congressman Salmon's 
bill, H.R. 1853. I believe Taiwan is a vital partner of the 
United States and a responsible global citizen. Taiwan's 
participation in INTERPOL will serve to make us all safer and 
promote greater collaboration and cooperation on the 
international stage.
    Lastly, I would like to express my strong support for the 
United States International Communications Reform Act. This 
bill will provide a much-needed overhaul of our efforts to 
promote freedom of speech and of press across the globe.
    I am personally pleased this legislation again includes 
language I offered as an amendment last year in support of 
shortwave broadcasting. Shortwave broadcasting is a versatile 
and effective tool to reach many populations, and I continue to 
support its use in regions where repressive regimes do not 
allow for independent news sources, such as Vietnam.
    I hope the House quickly considers and passes these 
important pieces of legislation. And, again, Madam Chair, thank 
you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Lowenthal.
    And hearing no further requests for recognition, I again 
want to thank Ranking Member Engel and all of our committee 
members for their contributions and assistance with today's 
markup.
    And, with that, the committee is adjourned.
    [Whereupon, at 10:47 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  Material submitted for the record by the Honorable Brad Sherman, a 
        Representative in Congress from the State of California

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
